<html>
<title> - [H.A.S.C. No. 111-158] ARMY AND AIR FORCE NATIONAL GUARD AND RESERVE COMPONENT EQUIPMENT POSTURE</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                         [H.A.S.C. No. 111-158] 

   ARMY AND AIR FORCE NATIONAL GUARD AND RESERVE COMPONENT EQUIPMENT 
                                POSTURE 

                               __________

                                HEARING

                               BEFORE THE

                    AIR AND LAND FORCES SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             APRIL 22, 2010


                                     
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

57-402 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 





















                    AIR AND LAND FORCES SUBCOMMITTEE

                    ADAM SMITH, Washington, Chairman
JOHN SPRATT, South Carolina          ROSCOE G. BARTLETT, Maryland
SILVESTRE REYES, Texas               CATHY McMORRIS RODGERS, Washington
MIKE McINTYRE, North Carolina        MARY FALLIN, Oklahoma
ROBERT A. BRADY, Pennsylvania        DUNCAN HUNTER, California
JIM COOPER, Tennessee                JOHN C. FLEMING, Louisiana
JIM MARSHALL, Georgia                MIKE COFFMAN, Colorado
JOE SESTAK, Pennsylvania             W. TODD AKIN, Missouri
GABRIELLE GIFFORDS, Arizona          JEFF MILLER, Florida
NIKI TSONGAS, Massachusetts          JOE WILSON, South Carolina
LARRY KISSELL, North Carolina        FRANK A. LoBIONDO, New Jersey
FRANK M. KRATOVIL, Jr., Maryland     ROB BISHOP, Utah
BOBBY BRIGHT, Alabama                MICHAEL TURNER, Ohio
WILLIAM L. OWENS, New York           TODD RUSSELL PLATTS, Pennsylvania
DAN BOREN, Oklahoma
               Jesse Tolleson, Professional Staff Member
                 John Wason, Professional Staff Member
                     Scott Bousum, Staff Assistant


















                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2010

                                                                   Page

Hearing:

Thursday, April 22, 2010, Army and Air Force National Guard and 
  Reserve Component Equipment Posture............................     1

Appendix:

Thursday, April 22, 2010.........................................    27
                              ----------                              

                        THURSDAY, APRIL 22, 2010
   ARMY AND AIR FORCE NATIONAL GUARD AND RESERVE COMPONENT EQUIPMENT 
                                POSTURE
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Bartlett, Hon. Roscoe G., a Representative from Maryland, Ranking 
  Member, Air and Land Forces Subcommittee.......................     3
Smith, Hon. Adam, a Representative from Washington, Chairman, Air 
  and Land Forces Subcommittee...................................     1

                               WITNESSES

Carpenter, Maj. Gen. Raymond W., USA, Acting Director, Army 
  National Guard.................................................     4
Stenner, Lt. Gen. Charles E., Jr., USAF, Chief, U.S. Air Force 
  Reserve........................................................     8
Stultz, Lt. Gen. Jack C., USA, Chief, U.S. Army Reserve..........     7
Wyatt, Lt. Gen. Harry M., III, USAF, Director, Air National Guard     6

                                APPENDIX

Prepared Statements:

    Carpenter, Maj. Gen. Raymond W...............................    33
    Smith, Hon. Adam.............................................    31
    Stenner, Lt. Gen. Charles E., Jr.............................    73
    Stultz, Lt. Gen. Jack C......................................    58
    Wyatt, Lt. Gen. Harry M., III................................    47

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Coffman..................................................    93
    Ms. Giffords.................................................    92
    Mr. Miller...................................................    92
    Mr. Smith....................................................    89
   ARMY AND AIR FORCE NATIONAL GUARD AND RESERVE COMPONENT EQUIPMENT 
                                POSTURE

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                          Air and Land Forces Subcommittee,
                          Washington, DC, Thursday, April 22, 2010.
    The subcommittee met, pursuant to call, at 1:31 p.m., in 
room 2118, Rayburn House Office Building, Hon. Adam Smith 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM 
     WASHINGTON, CHAIRMAN, AIR AND LAND FORCES SUBCOMMITTEE

    Mr. Smith. I call the meeting to order. Good afternoon.
    The Air and Land Forces Subcommittee meets today to receive 
testimony on the equipment status and the requirements of the 
Army and Air Force National Guard and Reserve components.
    I will apologize as an initial matter. We probably won't 
have that many members at the committee today, since the House 
concluded its business for the week a little over an hour ago; 
and many members, I am sure, are heading back to their 
districts as quickly as possible. But Mr. Bartlett and I are, I 
believe, more than capable of holding down the fort; and we 
will accommodate anybody else who does show up.
    But I want to thank our witnesses for being here today and 
welcome them. We have Major General Raymond Carpenter, who is 
the Acting Deputy Director of the Army National Guard. We have 
Lieutenant General Harry M. Wyatt, III, Director of the Air 
National Guard; Lieutenant General Jack C. Stultz, Chief, U.S. 
Army Reserve; and Lieutenant General Charles E. Stenner, Jr., 
Chief, U.S. Air Force Reserve. Thank you, gentlemen, all for 
being here.
    Since September, 2001, almost 600,000 selected guardsmen 
and reservists have deployed in support of combat operations, 
representing 40 percent of the total selected reserve force of 
1.4 million troops. All 34 Army National Guard combat brigades 
have deployed to either Iraq or Afghanistan. This is an 
unprecedented deployment schedule that has placed an enormous 
strain and burden on those in the Guard and Reserve and their 
families as well.
    But they have also performed with incredible ability. All 
of us on this committee have had the opportunity in Iraq and 
Afghanistan and certainly back here as well to visit with those 
troops, and they have done an incredible job for us while at 
the same time maintaining their domestic obligations and 
responding to a variety of emergencies as well. And we thank 
you four gentlemen for your outstanding leadership and for the 
service all those who serve under you have provided for our 
country. We could not be more proud of their performance.
    Last year, Secretary Gates adopted 82 recommendations from 
the congressionally mandated Commission on the National Guard 
and Reserves. One of those recommendations was to equip and 
resource the Guard and Reserve component as an operational 
reserve, rather than the Cold War model of a strategic reserve.
    Additionally, the Chief of the National Guard Bureau is now 
a 4-star general, giving him equal status among the Nation's 
senior officers.
    The old strategic reserve model assumed very few 
mobilizations and assumed risk with inadequate equipping 
strategies. The change to an operational reserve status 
coincident with the reorganization of the Army has greatly 
increased the amount of equipment Guard and Reserve units are 
required to have.
    While the Department is making improvements in progress and 
providing adequate funding to equip the Guard and Reserve 
components to enhance its role as an operational reserve, there 
are a significant number of units that do not have their 
required equipment; and this is the big issue that we wish to 
talk about today.
    We understand with the strains that have been put upon the 
force since 9/11 with Iraq and Afghanistan we are doing 
whatever we can to make sure that our warfighters out there in 
the field have what they need, and there are changes that have 
to be made. But, at the same time, we want to make sure that 
your Guard and Reserve components are adequately equipped for 
the mission that we are asking you to do. As difficult as that 
is, this committee is very committed to trying to find the way 
forward to make sure that it happens.
    The witnesses have been asked to clearly lay out what 
equipment levels their organizations are required to have and 
how those requirements have changed, as well as what equipment 
levels they actually have on hand. While most Guard and Reserve 
units deployed overseas have all the equipment they require, 
many of those units don't get all that equipment until just 
before deployment, in some cases after they deploy, which makes 
training to deploy very difficult.
    Aging aircraft continues to be a critical issue for the Air 
National Guard. Air National Guard aircraft are, on average, 28 
years old, with the KC-135 tankers averaging 48 years old. And, 
again, I should point out it is a major priority for this 
committee to get you a new tanker. There have been a couple of 
bumps in that road, as we all know, but we are proceeding 
forward, and we will continue to press to make sure that 
happens as soon as it possibly can. We very clearly understand 
the need.
    If the problems of equipment shortages and aging equipment 
persist, the National Guard and Reserve units that, while very 
dedicated and willing, may simply not be able to adequately 
respond to domestic emergencies, let alone train for combat.
    Congress has not hesitated in trying to address the 
equipment readiness shortfalls we have noted in many Guard and 
Reserve units. Guard and Reserve component procurement for 
fiscal year 2004 to fiscal year 2010 has totaled approximately 
$42.1 billion, averaging almost $6 billion per year. Since 
2004, Congress has provided approximately $7 billion in a 
separate dedicated equipment account entitled the National 
Guard and Reserve Equipment Account. This funding has enjoyed 
sustained bipartisan support both on this committee and 
throughout Congress.
    And, finally, we expect to gain a better understanding of 
the progress that has been made on improving visibility of 
tracking equipment requirements through budgetary preparation 
and review, appropriations funding allocation and, ultimately, 
in the distribution of new equipment.
    That concludes my statement. I will submit the full 
statement for the record.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 31.]
    Mr. Smith. With that, I will turn it over to the ranking 
member on the committee, Mr. Bartlett, for his opening 
statement.

  STATEMENT OF HON. ROSCOE G. BARTLETT, A REPRESENTATIVE FROM 
   MARYLAND, RANKING MEMBER, AIR AND LAND FORCES SUBCOMMITTEE

    Mr. Bartlett. Thank you, Mr. Chairman.
    I want to thank our witnesses for being with us today. 
Thank you very much for your service to your country and for 
being here with us today.
    Mr. Chairman, the reserve component is no longer considered 
a strategic reserve and is now considered an operational 
reserve. I look forward to hearing from our witnesses as to how 
this transition is going and what, if any, the long-term 
impacts might be.
    From an equipment perspective, I absolutely agree that if 
we are going to continue to expect so much from our reserve 
forces then not only must we properly equip them in terms of 
numbers of equipment but also equip them with modern equipment. 
While I have some concerns regarding modernized equipment for 
the Army Guard and Reserves, I have major concerns for our Air 
Guard. The Air Force proposed major changes to force structure 
along with the fiscal year 2010 budget request. I, along with 
most of the other members of this committee, was very concerned 
that these force structure changes were solely the result of a 
budget exercise that failed to account for the actual military 
requirements needed to address the security challenges of today 
and the future. Seeing the short-term perspective, the QDR 
[Quadrennial Defense Review] and the 30-year aviation plan has 
only added to my concern.
    In this past week, we have received the final three reports 
required by last year's legislation: one on the Combat Air 
Force restructuring, one on the fighter force structure, and 
one on the potential to meet fighter shortfalls by procuring 
new F-15s, F-16s and F-18s. Those reports, which are 
unfortunately classified and cannot be fully discussed here, 
did little to change my belief that the budget is driving the 
force structure requirements, instead of the other way around.
    The fiscal year 2010 budget request targeted the fighter 
force structure, and it appears that the 2011 budget targets 
the tactical airlift force structure in a similar manner. The 
proposed movement of C-130s from the Air National Guard to the 
active component is very troubling to me. The C-130s play a key 
role in the Guard's Title 32 responsibilities and are critical 
assets for the Nation's ability to respond to most any type of 
domestic event such as natural disaster or terror attack.
    It is unclear to me how we arrive at a point that the 
active Air Force has to take aircraft in the Air National Guard 
if what we have been told about the budget is true. In my mind, 
if the military requirements were, in fact, being met by the 
budget request, then this attempt at robbing Peter to pay Paul 
would not be taking place.
    I also believe that these shortfalls in tactical aircraft 
could have been mitigated if we had stuck to the plan to 
procure 78 Joint Cargo Aircraft [JCA], but, unfortunately, that 
program was cut as well.
    I find this all very troubling, and I hope our witnesses 
today can help us understand just how much additional risk we 
have been asked to take. Thank you.
    Mr. Smith. Thank you, Mr. Bartlett.
    I will now proceed with the panel's testimony and then go 
into questions.
    Without objection, all witnesses' prepared statements will 
be included in the hearing record. I would ask that you try to 
keep your remarks in the sort of 5-to-8-minute range, and we 
will have the maximum amount of time for questions.
    With that, I will turn it over to General Carpenter for his 
opening remarks.

   STATEMENT OF MAJ. GEN. RAYMOND W. CARPENTER, USA, ACTING 
                 DIRECTOR, ARMY NATIONAL GUARD

    General Carpenter. Thank you, Chairman Smith, Ranking 
Member Bartlett, distinguished members of the subcommittee.
    It is my honor and privilege to be here today representing 
over 360,000 Army National Guardsmen, over 50,000 who are 
currently deployed and on point for our Nation.
    I wish to thank you for the opportunity to share relevant 
information on the equipment posture of the Army National 
Guard. We thank you for your continued support in sustaining 
the initiatives.
    Today, we would like to discuss our critical dual-use 
equipment, our critical need for certain configurations of the 
high-mobility, multipurpose wheeled vehicles fondly called the 
Humvees, the National Guard and Reserve Equipment Account, and 
the improvements in the modernization and making our facilities 
energy efficient.
    The Army National Guard equipment levels for domestic 
missions had fallen from 70 percent in 2001 to as low as 40 
percent in 2006. Several factors contributed to the decline of 
the Army Guard equipment levels: changing requirements, 
equipment destroyed during combat operations, and equipment 
left in theater for other units.
    Current equipment levels as of April, 2010, are 77 percent 
equipment on hand; and 83 percent of that equipment is subset 
critical dual-use equipment, is available for domestic response 
missions.
    During fiscal year 2009, the Army G8 released a new Army 
equipping strategy that establishes a goal of at least 80 
percent of equipment on hand for critical dual use for Army 
Guard units, that being in the State, available for the 
governor, regardless of their rotation status in the Army force 
generation cycle.
    The Army National Guard has a fiscal year 2011 
authorization for 48,712 Humvees, with 96 percent of those 
Humvees on hand. Although we are approaching 100 percent 
equipment on hand, only about 10,000, or around 20 percent, of 
our authorized fleet is currently modernized. Based on the Army 
enterprise equipping and reuse conference projections, this 
number will grow to about 15,000, or approximately 30 percent, 
by the end of fiscal year 2011, assuming scheduled deliveries 
are executed as planned.
    Congress has been very responsive to the Army National 
Guard requirements. The National Guard and Reserve Equipment 
Account [NGREA] has been especially supportive in the pursuit 
of our equipping for the force. The Army Guard via NGREA 
received $770 million for fiscal year 2006, $1.1 billion for 
fiscal year 2007, $1.3 billion for fiscal year 2008, and $779 
million for fiscal year 2009. This funding has been used for 
critical dual-use equipment for command and control, 
communications, aviation, force protection, including civil 
support teams, engineering, logistics, maintenance, medical, 
security, and transportation, our essential 10 capabilities 
available for the governors if there is a requirement.
    In your letter, you asked about the status of funds 
provided for 2008, 2009, and 2010. Overall, we have used these 
funds to purchase stocks of radios, trucks, night vision 
devices, small arms, and communications equipment to fill our 
most critical gaps. Some of this funding still remains to be 
executed, but it is always focused on our most urgent priority 
needs.
    Progress is also being made in the visibility and 
transparency of tracking equipment funds from appropriation 
through procurement to actual fielding.
    The Army National Guard has worked and continues to work 
with the Army to improve transparency, and I am confident we 
have a path to success in the future. The Army National Guard 
will continue to focus on our equipping levels, especially for 
our critical dual-use equipment, enhance our emphasis on energy 
efficiency and our readiness centers, provide a logistics 
training that supports the Army force generation cycle, and 
procure vehicles that meet our training needs as well as our 
domestic and contingency operation needs.
    The Army National Guard renders a dual federal and state 
role and provides unique support to our Nation in a cost-
effective manner. Through adequate funding of resources and 
leadership engagement in the equipment fielding and 
transparency driven by ongoing support from Congress, the Army 
National Guard will continue to meet operational demands.
    I appreciate the opportunity to be here today and look 
forward to your questions.
    [The prepared statement of General Carpenter can be found 
in the Appendix on page 33.]
    Mr. Smith. Thank you, General.
    General Wyatt.

 STATEMENT OF LT. GEN. HARRY M. WYATT III, USAF, DIRECTOR, AIR 
                         NATIONAL GUARD

    General Wyatt. Chairman Smith and Ranking Member Bartlett, 
distinguished members of the committee, thank you very much for 
the opportunity to visit with you today regarding the equipment 
posture of our Nation's Air National Guard, some 106,700 
members strong.
    Since 9/11, over 146,000 Air National Guard members have 
deployed overseas, many of them on second and third rotations 
to combat zones, 75 percent of those in a volunteer status. In 
the past year alone, we have deployed 18,366 service members to 
62 countries and every continent, including Antarctica.
    The stewardship of your committee and the level of 
commitment of our Nation's Department of Defense [DOD] and the 
U.S. Air Force have ensured these airmen go to war well-
equipped, well-trained, and well-led. The Air Reserve 
components are part of a seamless, integrated total force team. 
We are very thankful for your support and everything you 
continue to do to ensure our members are appropriately equipped 
and trained in the performance of their duties.
    The Air Force is in the midst of modernizing and 
recapitalizing its major weapons platforms, and the Air 
National Guard is a partner in this process. Many of the 
aircraft and operation today are much older than the airmen who 
fly and maintain them. Our aging aircraft fleet of aircraft 
must be recapitalized concurrently and in balance with our 
total Air Force partners in order to avoid near to midterm age-
out of the fighter force our Guard airmen operate. To that end, 
we support the Air Force's recapitalization plan and have been 
working diligently to ensure all force structure road maps are 
inclusive of the Air National Guard.
    Additionally, the Air National Guard as our Nation's cost-
effective, ready and reliable force, accessible and available, 
continues to leverage the vast majority of its equipment as 
dual use, meaning it may be used to support both federal and 
state missions. This ensures that needed capabilities are 
available not only to combatant commanders but also for the 
governors and maintaining capabilities for homeland defense.
    However, despite the overall excellent equipment support 
provided by the Air Force, the Air Guard still has shortfalls 
in critical support areas, including logistics, vehicles, and 
maintenance. Air National Guard equipment readiness presents 
greater challenges as long-term costs in operating and 
maintaining older aircraft continue to rise due to more 
frequent repairs, fluctuations in fuel prices, and manpower 
requirements. The cost of aircraft maintenance continues to 
rise significantly as we struggle to extend the life of our 
aging fleet.
    These rising maintenance costs are not solely confined to 
aircraft. During the past year, we have worked with the 
adjutants general to develop an Air National Guard flight plan, 
which includes viable options for the Air National Guard. In 
the end, our goal is to ensure that all plans are concurrent 
and balanced for the entire, total Air Force.
    I appreciate the opportunity to appear before you today on 
behalf of the men and women of our Nation's Air National Guard. 
I thank you for your continuing outstanding support for the Air 
National Guard as it remains America's ready and reliable force 
as we meet the challenges of the 21st century.
    Thank you very much, Mr. Chairman.
    [The prepared statement of General Wyatt can be found in 
the Appendix on page 47.]
    Mr. Smith. Thank you, General.
    General Stultz.

  STATEMENT OF LT. GEN. JACK C. STULTZ, USA, CHIEF, U.S. ARMY 
                            RESERVE

    General Stultz. Chairman Smith, Congressman Bartlett, other 
distinguished members of the subcommittee, thank you for the 
invitation to appear before you today on behalf of 207,749 Army 
Reserve soldiers who are currently deployed in 20 some 
countries around the world, as well as here in the continental 
United States.
    We continue to transition from what was the strategic 
reserve that I entered way back in 1974--or, actually, 1979, 
after 5 years on active duty in 1974--to what we have today in 
operational reserve, where we keep 30,000 Army Reserve soldiers 
on active duty in addition to our 16,000 full-time military for 
this Nation. So out of an authorization of 205,000, we are 
providing roughly 45,000 full-time soldiers on a regular basis. 
It is a great return on investment for America, but we need to 
keep that force trained, ready, and equipped.
    The Army Reserve has seen improvements in the amount of 
equipment on hand to meet requirements of an operational force. 
However, several barriers continue to slow the Army Reserve's 
transition from that strategic to an operational force.
    The Army Reserve relies on internal lateral transfers and 
theater-provided equipment to meet current missions. Since we 
are currently at 80 percent equipment on hand but only 65 
percent modernized, we continuously cross-level equipment to 
meet these needs. We are very thankful to Congress for helping 
us abate our equipment challenges through the National Guard 
and Reserve Equipment Account. These funds greatly add toward 
our operationalizing the Army Reserve by serving as a 
supplement to the planned Army procurement.
    NGREA enables the Army Reserve to procure modernized 
equipment that the Army is unable to provide. For example, 
between 2009 and 2010, the Army Reserve was allocated $2.7 
billion for equipment by the Congress and was appropriated $212 
million through NGREA. We are procuring with that money power 
generation, field feeding, logistics systems, and tactical 
wheeled vehicles, in addition to what the Army is scheduled to 
provide for us. Our goal is to make the most effective and 
efficient use of these funds, to procure equipment that 
produces trained units that are ready to fight and win on the 
battlefield or respond to domestic homeland missions.
    In order to successfully function as an operational reserve 
and support the Army force generation process, the Army Reserve 
requires a consistent and transparent stream of modernized 
equipment. The Army Reserve's equipping goal is to ensure that 
our soldiers train with and train on the latest equipment the 
Army uses in the field as they progress through the cycles of 
the readiness model. Filling our unit requirements with current 
generation equipment increases our ability to meet 
premobilization training and readiness objectives in the Army 
force generation and maximize the boots on the ground time that 
those soldiers have when they are deployed.
    The Army Reserve is working collaboratively with the Army 
and DOD to secure the critical resources required to produce 
individuals in units that can participate in a full range of 
missions in a cyclical manner. As directed by Army, we have 
transitioned our training programs to prepare our forces to 
perform full spectrum operations, increasing our capability but 
also requiring the equipment to do full spectrum operations.
    We still have the challenge of modernizing key individual 
systems. I will give you one example. A family of medium 
tactical vehicles [FMTV], the FMTV percentage for the Army 
Reserve may be at 80 percent. However, the modernized is only 
49 percent. And we see this across our force where we have 
equipment on hand that is in lieu of or substitute items for 
the modernized equipment that those soldiers will operate or 
need to train on to operate in theater.
    One of the greatest challenges facing the Army Reserve 
today is having the right number of modernized equipment sets 
on hand to train prior to deployment. While we have seen 
improvements in equipment levels and upgraded modernized 
equipment, we continue to experience shortfalls. The NGREA, as 
I said before, is a great asset to us.
    I look forward to your questions, but, on behalf of those 
207,000 plus soldiers, I want to say thank you for the support 
that they have been given by you in the previous years and look 
forward to your support for the future.
    Thank you, sir.
    [The prepared statement of General Stultz can be found in 
the Appendix on page 58.]
    Mr. Smith. Thank you, General.
    General Stenner.

  STATEMENT OF LT. GEN. CHARLES E. STENNER, JR., USAF, CHIEF, 
                     U.S. AIR FORCE RESERVE

    General Stenner. Thank you, sir.
    Chairman Smith, Congressman Bartlett, distinguished members 
of the subcommittee, thank you as well for allowing us the 
opportunity to come today and give you a status report on the 
strength that we have here in the Air Force Reserve, the 
strength that you have in an Air Force that is doing the 
Nation's business right now around the world.
    And I have with me today--I would like to introduce real 
briefly here--our Air Force Reserve Command, Command Chief 
Master Sergeant, Chief Dwight Badgett. He is here helping me in 
his capacity as the senior ranking enlisted member to keep 
track of the 72,000 members of the Air Force Reserve is the 
number we are growing to as we grow in all of the missions that 
the Air Force is doing, all the missions around the world. And 
as part of that three-component Air Force, the Air Force 
Reserve is pleased to be a full partner in that effort.
    I will tell you that the authorizations that you have given 
us in the past have helped tremendously to keep us in a ready 
status, and we have been doing this as an Air Force for 19 
years. Since the Desert Shield/Desert Storm days, we have had 
some folks in combat operations over the skies, in the Mideast 
and in other locations around the world continually.
    We have a tempo that was sustainable, we have a predictable 
rotational base, and we keep our folks trained and ready using 
those authorizations, using the techniques and tools that we 
have to get those folks through the basic training and then 
through tech school, making them combat ready in a much shorter 
time than when they are only available to us on weekends. They 
are there training on the equipment, three components training 
on the same equipment and deploying with the same equipment 
that we have right now. Because we, as an Air Force, do manage 
and monitor the airplanes, the equipment as a three-component 
Air Force; and it is the NGREA dollars that are so precious to 
us as the Air Force Reserve. It helps us accelerate the buys on 
many of the things in the precision engagement kind of 
equipment in defensive systems and in irregular warfare combat 
gear that allow us to train on the same systems and sustain and 
maintain that combat capability that we have as a three-
component Air Force.
    You are getting a good deal. For only 5.3 percent of the 
military's budget, we have got 14 percent of the capability in 
the Air Force Reserve. We are partners in all of those 
missions, sir; and I think that pays the Nation big dividends.
    The way ahead for us in equipment is to continue to sustain 
that increase and that increase in capacity, the production 
capacity that comes with those NGREA dollars in those three 
major areas. As we do that, I think we will grow in all those 
mission areas; and we will, in fact, adjust our active reserve 
component manpower, our authorizations. We will adjust the full 
time and part time to get more efficient in each of those 
areas, share where we do the equipment, use the equipment at 
the maximum rate we can use it. And in those associate concepts 
and constructs, we are able to seamlessly integrate, train, and 
ready to the same standards based on the readiness dollars we 
have and using and leveraging that equipment as part of that 
operational force that is, in fact, leveraged from the 
strategic reserve that we are.
    We are ready for the major conflicts, and we are a full 
partner in a rotational basis on a daily basis. Associations, 
rebalancing, adjustments, and optimizing the equipment we have, 
utilizing the NGREA that we have got, focusing on precision 
engagement defensive systems and irregular warfare gear will 
help us prepare today for tomorrow and the future; and we will 
maintain that in a sustainable and predictable fashion with 
those 80 percent volunteers that are doing the business of the 
Nation around the world today.
    I thank you for the opportunity, and I look forward to your 
questions.
    [The prepared statement of General Stenner can be found in 
the Appendix on page 73.]
    Mr. Smith. Thank you very much, gentlemen.
    We will go under the 5-minute rule here, try to keep things 
moving in an orderly fashion; and I will be under the 5-minute 
rule as well in terms of my questions.
    I start with General Carpenter on the utility in up-armored 
Humvees. As you know, the Army has concluded that they have got 
enough basically and they are not building any more; and now 
they are basically recapping the existing fleet that is here 
and coming back from Iraq. In terms of your needs, will that 
sufficiently meet the requirements as you see them for your 
needs or do you think you will need more vehicles?
    General Carpenter. Sir, we worked with the Army as they 
went through the process of making this decision; and one of 
the guiding facts with regard to this whole decision process 
was that up-armored Humvees are no longer being used in 
Afghanistan and Iraq and they have given way to MRAPs [Mine 
Resistant Ambush Protected vehicles]. So with that knowledge 
and understanding that there was a more modern vehicle on the 
horizon, the Army made the decision that they were going to 
terminate the procurement of a newer Humvee, those being the 
up-armored ones.
    For us inside the Army National Guard, it is more of a 
modernization program than a deployment program. As I mentioned 
in my opening statement, 80 percent of our Humvees will be 
older than the 20-year mark by the time we get done using them. 
So our concern is to be able to sustain that fleet.
    Part of the discussions with the Army as we made the 
decision was that they were going to put a certain amount of 
money against the recap program and that, additionally, they 
were going to cascade a certain number of those Humvees to us 
so that we could maintain something that looked like a 
modernized fleet.
    To the extent that the Army keeps the promises that they 
have made, I think we are going to be in pretty good shape; 
And, in all honesty, the up-armored Humvees are of marginal use 
in some of our homeland defense responses. General Tonini from 
Kentucky can tell you that an up-armored Humvee doesn't have 
the greatest utility in an ice storm. So there is good reason 
for us to sustain the Humvee fleet within our organization.
    Mr. Smith. And you have enough in terms of the domestic 
needs. I understand that completely. But in terms of your 
training for when you are activated, is there a training 
requirement in terms of what you are going to actually be using 
in the field?
    General Carpenter. Yes, sir. That is important for us as we 
get ready to mobilize and deploy, to ensure that we have the 
up-armored version of the Humvee so that we have got a training 
set that we can train on in order to qualify our drivers.
    Beyond that, we are also being fielded with MRAPs at 
selected places inside of our training base so that we can 
qualify those drivers in advance of mobilization and 
deployment. There is also a plan to put MRAP trainers 
throughout the National Guard. So if all of that stays in 
place, sir, I think we are going to be in pretty good shape.
    Mr. Smith. You have got what you need.
    A question for the Air Force, both General Wyatt and 
General Stenner. I think the biggest concern on this committee 
when we look at the capitalization requirements for Guard and 
Reserve components is the C-130. And the demand for those is 
great obviously in theater. More of those are being moved into 
the active component, and I think there was a concern on this 
committee whether or not the Guard and Reserve will have what 
they need in terms of 130s to meet their training in domestic 
mission. Can you walk us through that a little bit and what 
your confidence level is and whether or not you are going to 
have an adequate level of 130s?
    General Wyatt. Mr. Chairman, as you are aware, the 
Mobility, Capability Requirement Study [MCRS] was released and 
published late February, early March identifying a lower 
requirement and a current overcapacity of C-130s. It doesn't 
address the component necessarily where those aircraft are 
located, but it does address a lower number that are needed.
    I think you see in the President's 2011 budget an effort to 
retire some of the older E models and H models, which are, 
again, aging airframes, costly to maintain and a direction 
where we need to go so that we can position ourselves for the 
missions of the future.
    General Stenner and I have met extensively with the Air 
Force subsequent to the release of the President's budget, and 
we are addressing the C-130 issue that you have mentioned. In 
fact, we had another meeting on it today. I am confident that 
we will meet a resolution that will address the adjutants 
general need and the governors' need for domestic airlift and 
at the same time accomplish the President's budget initiative 
to save some money and move the force in the direction that it 
needs to go as far as tactical airlift is concerned.
    Mr. Smith. We will be watching that very closely.
    General Stenner, just quickly. I am out of time, but go 
ahead for just a quick comment.
    General Stenner. Yes, sir.
    I will echo the comments that General Wyatt made. I will 
tell you that some of the things we are looking at is where it 
is smart to leverage the Guard and Reserve, that experience in 
depth, perhaps in a training role. How do we balance the Active 
and Reserve and Guard at that particular location and mission 
to get the most of it and then how then will that free up some 
of the other manpower to put into mission sets that the Air 
Force has been tasked with that we have been up until this 
point unable to finance and fund within the cap that we have on 
manpower? So I think that the 130 will be an example of how we 
might leverage other weapon systems as well by rebalancing and, 
in effect, using the amount of iron that we have, the amount of 
airplanes we have in a more efficient and effective manner, 
packaging it in associations.
    Mr. Smith. That makes sense. We will want to keep a careful 
eye to make sure you have enough to do that. But I think 
certainly I want to make the most out of what we have got.
    Mr. Bartlett.
    Mr. Bartlett. Thank you very much.
    I want to ask a couple of quick questions about the C-27J. 
It is my understanding that the original requirement, which has 
never been formally reduced, was 78 aircraft; is that correct?
    Okay. And I am also assuming that that did not include 
aircraft that might be needed by the Guard for homeland 
security. That was just the combat forces. Am I correct with 
that?
    General Wyatt. I think you are correct, sir.
    Mr. Bartlett. And in spite of the fact that we originally 
said we needed 78, there has been no study that said we needed 
fewer and those 78 did not include the Guard's use for homeland 
security or stateside use, we are now buying only 38, and we 
can only account for 24 of those, and we are wondering where 
the others are going. If you could help us where they are going 
to be bedded down. And then the question is, with these reduced 
assets and the increased responsibilities that you have, how 
are you going to be able to meet these demands?
    General Wyatt. Congressman Bartlett, you are correct. The 
program of record is 38, and you are also correct that 24 have 
announced bed-down locations, four aircraft each at six 
different locations, leaving 14 aircraft yet to be decided as 
far as their bed-down location. That question is now being 
vetted through the Air Force's strategic basing executive 
steering group, which is the entity inside the Air Force that 
addresses locations according to the drafted criteria for that 
particular platform. And I am advised that a list of candidate 
bases, which will be the first glimpse as to where those 
aircraft may be located, will be coming out shortly.
    As far as the need for additional C-27s, you mentioned the 
direct support mission. The direct support mission can be 
performed by other aircraft. So I guess my best answer to that 
would be that there continue to be discussions and analysis 
inside the Air Force to determine the best way to meet the 
direct support requirements that the Army has indicated and the 
proper aircraft mix, proper location, proper component to fly 
those missions.
    Mr. Bartlett. But isn't it true that our operations in 
Afghanistan beg for more rather than fewer 27Js because of the 
size of the fields and so forth there?
    General Wyatt. We take the request for forces, the request 
for capability from the combatant commanders. And I am aware 
there has been an additional request for direct support 
aircraft in theater. Again, whether that is filled by the C-27 
or the C-130 depends upon the availability of aircraft and the 
specific type of direct support mission that the combatant 
commander is addressing. So it is difficult to answer your 
question without knowing specifically what the combatant 
commanders are requesting at any point in time.
    There is a space issue, a ramp space issue in theater. We 
are limited in the numbers of aircraft, regardless of what 
types they are, just because of the limited number of square 
footage of concrete in theater. But certainly the direct 
support mission is an important one to the Air Force; and it is 
extremely important to the Air National Guard, since all 38 of 
those airplanes that you mentioned, the C-27s, are designated 
for the Air National Guard at this time.
    Mr. Bartlett. General, you mentioned in your unclassified 
report that the Air National Guard faces a capability gap in 
the near term which increases in the longer term. Additional 
delays in production rate, a decrease in the F-35 program will 
have a direct and proportionally negative impact on the Air 
Force and, therefore, the Air National Guard fighter gap. How 
big will this risk be as a result of your facing the Nunn-
McCurdy breach and what can we do to mitigate it?
    General Wyatt. As you are aware, sir, most of the older 
block F-16 block 30s reside in the Air National Guard. So we 
face a recapitalization issue. It may be a little more imminent 
than the Air Force as a whole.
    You are also very well aware that the Secretary of Defense 
has recently restructured the F-35 program; and it is essential 
that the program, as restructured, stay on target and be 
implemented as requested by the Secretary. Any delays create 
more difficulties for the Air National Guard to transition out 
of the old legacy airplanes that will be aging out into the new 
platforms. So timeliness is critical; and the program, as 
restructured, is of critical importance to the Air National 
Guard.
    Mr. Bartlett. Thank you.
    Thank you, Mr. Chairman.
    Mr. Smith. Thank you.
    Mr. Wilson.
    Sorry. I should point out--well, Ms. Bordallo is not 
actually on this subcommittee, so we go in that order, though. 
With permission, I will call on her after Mr. Wilson.
    Mr. Wilson. I am always happy to defer to Member Bordallo.
    Mr. Smith. Okay. Well, go ahead. Okay. Well, one of you has 
got to step forward here, So I will make the executive 
decision. Mr. Wilson go ahead, and then we will go to Ms. 
Bordallo.
    Mr. Wilson. Thank you.
    Thank you, Mr. Chairman; and thank all of you for your 
service here. And it is so impressive, your leadership is 
indeed.
    The Guard and Reserve forces are moving from strategic 
reserve to operational reserve. As a 31-year veteran myself, it 
is so heartwarming to see the service of our young people. And 
I know firsthand. I have three sons in the Army National Guard, 
two sons who have served in Iraq, one has served in Egypt. So I 
know that our Guard members really want to be operational, not 
as I was for many years, truly in reserve. So thank you for 
what you do.
    And, also, I am very grateful--my former National Guard 
unit, I just--I know how much it meant to them, the 218th 
Brigade, to serve in Afghanistan, led by General Bob 
Livingston. Truly, as I travel South Carolina today, people who 
served in Afghanistan, it was a life-changing, positive 
experience for the members of the National Guard. So thank you 
for what you do.
    Looking back, I would like for all of you to reference how 
would you rate your ability from the equipment perspective to 
complete your missions in contrast to where we were pre-9/11, 
2001? We can begin left to right.
    General Carpenter. Sir, first of all, let me thank you for 
your service and the service of your family and the service of 
the 218th Brigade. They did wonderful work over there at Task 
Force Phoenix, and they put in place some of the training base 
for the Afghan National Army and Afghan National Police that we 
are building on in theater today. So they can be very proud of 
what they have done over there.
    I think that, in response to your question, there are two 
pieces, those two pieces being the quantity of equipment that 
we have in the Army National Guard and the quality of equipment 
that we have in the National Guard. Pre-9/11, we had 70 percent 
of the equipment that we were authorized, but honestly much of 
it was not modern equipment. So as we saw our responsibility to 
mobilize and deploy our soldiers and what was the kind of 
equipment that was allowed for deployment in the theater and 
what the combatant commanders wanted there versus what the 
National Guard equipment set looked like, we found that there 
was a lot of equipment inside of our organization that was of 
the type that would not be allowed to even be deployed.
    That was further exacerbated when we saw the results of 
Hurricane Katrina when we were looking for high-water vehicles 
in order to conduct operations in that particular emergency and 
disaster. And, again, the old deuce and a half that many of us 
grew up with was not adequate for what we were doing there. And 
I would point out that this year, in fiscal year 2011, we are 
going to retire the deuce and a half, which has been in our 
formation since the 1950s. That is a huge accomplishment, and I 
think it is a good indicator of where we are at in the 
modernization program.
    As I pointed out, we have got 77 percent of the equipment 
we are supposed to have on hand across the entire Army National 
Guard. Now, it varies by State. Because as States mobilize and 
deploy that equipment, resident inside the State changes, and 
much of that equipment deploys with the organization when they 
leave. So the statistics I quoted at the outset, the critical 
dual-use equipment, which is available for both the homeland 
and the overseas mission, right now is at 83 percent. Sixty-six 
percent of that is available for the governors. So we have seen 
huge progress here inside the equipment counts, and that is due 
to the $32 billion that you all have invested in our 
organization as an operational reserve.
    General Wyatt. Congressman Wilson, from the Air National 
Guard standpoint, we have been an operational force I think 
probably out of necessity as we have evolved from the very 
first desert war. We have been an operational force for about 
the past 20 years. While we continue to--as far as an equipment 
standpoint--have the numbers of equipment that we need, our 
problem again is that qualitative issue. As the Air Force moves 
into more modern equipment, our challenge is to modernize our 
equipment to make sure that it remains compatible with that 
equipment flown by the active component.
    We stress the importance of the NGREA account to help us do 
that. We know that recapitalization of the entire fleet is an 
expensive and time-consuming process, and we know that we can't 
get to recapitalization at the drop of a hat. So we have got to 
stress modernizing the equipment that we do have.
    We also look at dual use when we expend our NGREA monies. 
Last year, I believe the amount was $135 million, critically 
important to getting us the communication links that we need to 
provide the type of targeting pods that we need, the type of 
protective equipment for our security forces and those first-
responder-state mission-type folks that we have embedded inside 
the Air National Guard. So the quantitative is not necessarily 
the issue, but the qualitative and continuous modernization is 
what is important to us.
    Mr. Smith. Thank you.
    General Stultz, you can go ahead quickly. We are out of 
time if you want to get to the next question. But take a quick 
stab at it, and then we will move one. We will probably have 
time for a second round, but go ahead.
    General Stultz. Yes, sir.
    I would just like to echo what General Carpenter said. It 
is a situation of not just on hand but modernization. And, as I 
said earlier, we are at about 80 percent of on-hand equipment 
which is the highest we have ever been but only about 65 
percent modernized.
    And why that is important and the point I would make--and I 
will keep it short--it is not just about what they are able to 
do in theater. We provide them the best and the most modern 
equipment in theater. But if we don't have the modernized 
equipment back home, it reduces our strategic flexibility. And 
we have already experienced that where we have had units that 
were scheduled to deploy to Iraq and we wanted to remission 
them to Afghanistan because of the surge going on there but 
were unable to because they were going to fall in on provided 
equipment in Iraq. There is no provided equipment in 
Afghanistan, and the equipment back home was not the modernized 
equipment, and so it really limited our flexibility already 
there.
    So I would stress that it is not just about having the 
right equipment for what is currently going on, it is having 
the right equipment that gives us the flexibility for the 
future requirements that we really don't have the forecast on.
    Mr. Smith. Thank you very much.
    Ms. Bordallo. Sorry.
    Ms. Bordallo. Thank you. Thank you very much, Mr. Chairman. 
Thank you for allowing me to ask questions on this important 
hearing even though I am not a member of this particular 
subcommittee; and I thank my colleague, Mr. Wilson, for 
offering me his slot.
    Distinguished members of our panel, thank you for your 
testimony today; and I thank you for your dedication to our 
country.
    My question is for General Carpenter in regards to the 
Joint Cargo Aircraft. The Army Guard fleet of C-12, C-23, and 
C-26 aircraft continues to age with no replacement in the 
future year's defense plan. And, finally, the mobility, 
capability, and requirement study released this year provides 
little details on the C-27J. The items I have listed leave me a 
little confused. Now, this aircraft is needed. However, we have 
cut the program from 78 to 38 aircraft; and the MCRS, a 
document that describes our mobility capabilities in the Air 
Force, barely addresses the aircraft. Our Army Guard planes are 
getting older; and, therefore, I would like to ask General 
Carpenter, how is the Army and the Army National Guard 
addressing the critical need to replace fixed-wing aircraft 
within the Army National Guard?
    And I know that I am being a little bit redundant here. 
Congressman Bartlett touched on this. But I would like to have 
a clear answer on this.
    General Carpenter. Thank you for the question, 
Congresswoman Bordallo.
    I think that you know that the Secretary of Defense made a 
decision this past year to transfer the C-27 program from the 
Army and from the Army National Guard to the Air Force. That 
left us with the C-23 aircraft that we currently have inside of 
the Army National Guard. Those C-23s continue to provide 
exceptional support in Iraq; and we have, I believe, 11 of 
those aircraft currently deployed.
    The other thing that the C-23 does is it has a huge 
capability in the homeland mission in terms of being able to 
deliver smaller cargo loads in a very responsive manner. Since 
the C-27 program was transferred to the Air Force, our issue is 
to be able to maintain the capability of the C-23 inside the 
Army for the time that it is required, and we have a plan with 
the Army to do that. The C-12 fleet and the C-26 fleet are 
separate issues, and we are working with the Army on a 
modernization program for both of those aircraft. They have 
found a place, particularly in ISR [Intelligence, Surveillance, 
and Reconnaissance] and in transportation of passengers in 
theater; and the value of that aircraft has been validated. And 
so we are continuing to work with the Army on the modernization 
piece for that.
    I would defer to General Wyatt to discuss further the C-27 
issue with regard to that part of your question.
    General Wyatt. Congresswoman, I think it has been pretty 
clear that the program of record on the C-27 is 38. We are 
taking a look at the request for forces in regard to the direct 
support mission from theater. It is true that the C-130s can 
handle some of that direct support, but the exact mix in 
relation to not just the direct support mission requirements 
but also perhaps the larger requirement of tactical airlift as 
set forth in the mobility capabilities requirement studies 
requires the Air Force to take a pretty long look at how we are 
going to meet both the MCRS requirements and the direct support 
requirements.
    What that particular mix might be is still being discussed, 
and I wish I could be more specific than that, but I just don't 
have the exact numbers at this point in time. But it is going 
to be an issue here inside the Air Force as we talk about those 
requirements.
    Ms. Bordallo. Thank you very much.
    I have one question, also. This has to do with the 
territory of Guam, which is important. This is concerning the 
bed-down of the JCA. Tomorrow, our staffs will be briefed on 
the bed-down plan for several airframes, including the JCA. Can 
we expect to see a bed-down plan that addresses the homeland 
defense requirements of the Guard to support the FEMA [Federal 
Emergency Management Agency] regions within U.S. and the 
territories?
    Also, has there been any discussion about the requirements 
to support the Compact states in the Pacific? This is very 
important to the Guam National Guard and the Navy on Guam since 
we have an obligation to support the requirements of the freely 
associated States in the Pacific.
    General Wyatt. It seems to be in my lane. I will try to 
answer that one.
    Your first question as to criteria on JCA C-27 bed-downs, 
does it include concern about the Homeland Security homeland 
defense region, and the answer is, yes, the criteria does 
consider that. It is part of the criteria. It is not 
necessarily the most important but certainly an important one, 
a lot of different criteria going into the bed-down decision of 
where that airplane should be bedded down.
    As far as the territories are concerned and the airlift 
support required to cover that part----
    Ms. Bordallo. The Micronesian area.
    General Wyatt. Yes, ma'am--is part of the MCRS studies that 
have already been accomplished.
    Now, as to how the Air Force specifically will address that 
requirement is again being worked out as we study FEMA, as we 
study the airlift support for that part of the world and to 
CENTCOM [Central Command] and the other parts of the world. So 
it is kind of like a Rubik's Cube, trying to put all the 
requirements together and best deciding which airframes and 
what numbers support those particular requirements and which 
component, what type of associations we need as we transition 
in the future.
    Ms. Bordallo. Thank you very much.
    Thank you, Mr. Chairman, for giving me this opportunity.
    Mr. Smith. Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman.
    First of all, thank you so much for your service. It is 
great to be with you in this committee today.
    I myself served in the regular Army, the Army Reserve, the 
regular Marine Corps, and the Marine Corps Reserve. So I kind 
of wove in and out of active duty in the Reserves.
    My question is, General Wyatt, to the National Guard, Air 
National Guard. Not every State, obviously, is getting the F-16 
replacement, the F-35. The States that currently have them--
Colorado is one of those States. We have the F-16, and we are 
awaiting a decision on whether or not we are going to have the 
F-35. Can you tell me where we are in the process right now in 
terms of making that decision?
    General Wyatt. Yes, sir. The Air Force is studying the 
different procurement schedules in the F-35. And, as you are 
aware, those procurement schedules have been recently 
restructured by the Secretary of Defense.
    Last fall, the Air Force announced through their strategic 
basing executive steering group [SB-ESG] a process, 11 
candidate bases, that would address the bed-down of the first, 
I think, 279 aircraft F-35s, about half of those roughly going 
to the training mission and about half were operational. The 
first 279 have been restructured as a part of the Secretary of 
Defense's restructuring of the program.
    I think it is the intent of the Air Force that as we 
progress down the delivery schedule of that airplane that we 
will subsequently continue with the strategic basing executive 
steering group basing process using the criteria as may be 
amended through experience to consider those bases that might 
field the next tranche or the next portion, and I think what 
you are going to see is probably every two years there will be 
a release of a number of candidate bases.
    Subsequent to the release of the candidate bases, they have 
to go through site evaluations, environmental impact studies, 
and statements to determine--and help inform the Secretary and 
the Chief as they make their final determinations.
    But certainly, Buckley, in Colorado, is one of the bases 
that is being considered. Now, where they will fall out as far 
as the next tranche, we will just have to wait and see as the 
basing group goes through its criteria evaluations.
    Mr. Coffman. And how many Guard organizations that 
currently have the F-16 will not get the F-35 and will have to 
find an alternate mission?
    General Wyatt. I think the answer to that question would be 
determined by how many we ultimately acquire in the Air Force. 
The goal continues to be 1,763. The frequency and the rate that 
those are produced or required will determine to some extent 
what existing F-16 bases will be I think candidates for that 
particular airframe. We know that probably not all of our F-16 
units will transition to the F-35, but we think all of our F-16 
units, whether they transfer to the F-35 or some other legacy 
airplane as the Air Force fields F-35s, some of their more 
modern F-16s, F-15s will then float through the Air National 
Guard. So we see some of our F-16 bases being awarded the F-35, 
some being awarded later block F-16s, some transitioning into 
other missions like remotely piloted aircraft, distributed 
ground stations, intelligence cyber wings, emerging missions 
that will continue to be of vital importance to the U.S. Air 
Force. So to say how many, I cannot at this point in time. But 
that is kind of the process that we will go through.
    Mr. Coffman. Do any of the members of the panel feel that 
there is equipment that is being decommissioned that should not 
be decommissioned? I think, General Carpenter, you mentioned 
the deuce and a half truck. Do you still feel that has life in 
it and that it shouldn't be decommissioned or that there is 
equipment that is being left in Iraq that shouldn't be left in 
Iraq?
    General Carpenter. From my perspective, we are getting the 
most modern equipment. We are getting equipment in quantities 
that we probably haven't gotten certainly over my career. And 
we can keep a couple of deuce and a halfs around for you, if 
you would like. For the most part, they are not relevant in our 
operations anymore. We retired the last UH-1 aircraft here this 
past year.
    Again, all of that is certainly a testament to where we are 
at in the modernization piece and what NGREA and the investment 
that Congress has made in the National Guard, how that has 
increased our ability to be an operational reserve. So we are 
working towards the modernization program. We have got a ways 
to go yet but certainly have come a long way.
    Mr. Coffman. Thank you.
    Mr. Smith. Mr. Platts.
    Mr. Platts. Thank you, Mr. Chairman.
    First, I want to thank each of you for your many years of 
service to our country. I love what I do, and it is an honor to 
serve in public office, but it pales in comparison to each of 
you and all our men and women in uniform and, specifically, 
your efforts in leadership on behalf of our guards and 
reservists.
    I am from Pennsylvania, so my Stryker Brigade just spent a 
good part of last year in Iraq. In my own area, the 193rd 
special ops wing out in Middletown I know is one of the most, 
if not the most, deployed Air Guard unit out there; and the 
issues that my colleagues have raised on the equipment, your 
advocacy is to meeting their needs.
    I know it is so important. I know the 193rd, as they 
continue to meet the mission requirements, are challenged; and 
equipment is part of that challenge. So your efforts in leading 
the efforts to do right by all that serve with you is much 
appreciated.
    And with that, Mr. Chairman, I yield back.
    Mr. Smith. Thank you.
    I have a couple of questions I want to ask just for the 
record. I know you probably won't be able to give us a clear 
answer here up front.
    And, also, in following up on Mr. Platts' remarks, I would 
be remiss if I didn't do a little shout-out as well to General 
Lowenberg, who is our adjutant general who does a fabulous job 
out there and also our Reserve wing out at McChord that I know 
has been very, very active. Many of them are my neighbors. So 
they are doing a great job. And the entire Guard in our area, 
topnotch. So we certainly appreciate their service.
    The two things that I would like for you to get back to me 
on--we have talked about recapitalization requirements for all 
of your components--is a dollar figure. If you could imagine 
here is what we truly need to be where we are at. Now, I 
understand you get your budget and you don't come up here and 
then say, this is where it is insufficient. You come up here 
and say, it is sufficient, because it is. It is what you have 
got, and it is what you are going to work with?
    But for our planning purposes going forward, to the extent 
we can get an idea of what would be required to recapitalize 
you at the level to get the equipment you need to perform your 
domestic mission and doing the training to be an operational 
force, that would be helpful.
    [The information referred to was not available at the time 
of printing.]
    Mr. Smith. And then the other big problem that this 
committee, this Congress, and I think the DOD is facing is all 
of the implications of the F-35 problems. A lot of them come 
back towards you and sort of follows up on Mr. Coffman's 
question. There is going to be some shortages there as we 
transition forward. It is quite possible that the F-35 will 
slip again in terms of when it is going to be delivered. It is 
even more possible that it will wind up costing more than we 
expected; and, as a result, we will not be able to buy as many.
    It strikes me as sort of crying out for a Plan B in terms 
of, let us say, we don't wind up with the current requirement 
of 2,443 F-35s. What are we going to do to make sure that we 
have the fighter attack aircraft fleet that we need Active, as 
well as Guard and Reserve, and what would we do?
    Obviously, one of the places to look would be to build more 
F-15s and F-16s. We don't want to do that. And I realize you 
get into a tough sort of call because, if you spend more money 
on that, then you have less money for the top-of-the-line F-35.
    But in terms of making the money work and making sure you 
all have what you need, I think we need to be thinking about 
those things. I would love to see both of those questions, if 
you could submit something to the committee, what your thoughts 
are on those two. That would be very helpful.
    [The information referred to was not available at the time 
of printing.]
    Mr. Smith. The question I have has to do with recruitment 
and retention and with your force. As I mentioned, I know, as I 
think everyone on this committee and probably everyone in the 
country does, many people who are in the Guard and Reserve and 
what they have been asked to do since 9/11, the number of 
deployments now numbers that I have heard are that you are 
doing good--well, I guess, in terms of getting the numbers out. 
What are you thinking about in terms of what you need to do for 
your individual Guard and Reserve members and their families? 
Because, as you know, this impacts all of them. And that, in 
terms of recruitment and retention, it is not just the 
individual, it is the family that is impacted as well. What 
have you thought about in terms of how to work on those issues 
to help with recruitment and retention and to make sure you 
have a satisfied force?
    And, General Stultz, do you want to start off there?
    General Stultz. Yes, sir.
    As was alluded to earlier, our recruiting and retention 
right now is very, very good. We are almost 3,000 over 
strength. So my problem is rebalancing the force. And we have 
actually had to tell them to slow down on the recruiting 
because we have got too many of the young soldiers and not 
enough of the mid-grade soldiers.
    But one of the things--and it does get to the equipping 
side of the house, that I have a concern when it comes to 
retention. We have got the best-trained, most-seasoned combat 
force we have ever had. And those soldiers have performed 
magnificently. What troubles me is when they come back home and 
they come back home to that Reserve center and they go to their 
weekend drill and there is a 30-year-old truck sitting there 
instead of the piece of equipment they just operated in 
theater. So it does become a morale issue.
    So getting the modernized equipment is a key strategy for 
me in terms of retention. I have got to be efficient about it; 
and I have got to say, if I can get a full set of new trucks, I 
probably can't give them all to one unit. I have to spread a 
piece of each of those modernized trucks throughout so they can 
train on them. But at least they get to touch and feel that 
same piece of equipment that they just trained on in theater 
and just operated in theater.
    With regard to the families, the Yellow Ribbon programs 
that we are doing now, the Strong Bonds programs that we are 
doing now, all of the family support programs that we are doing 
now are critical. Because it does show to them our commitment 
that we are going to take care of them, that we do realize they 
are sacrificing just as much as those soldiers. So support for 
our family programs, as well as support for modernized 
equipment.
    Mr. Smith. General Stenner.
    General Stenner. Yes, sir. Thanks for the question.
    I will tell you I will reiterate what my partner here has 
said, that recruiting and retention are good. We have the 
highest retention we have had in a long time. We are bringing 
folks on, and we thought we better figure out why.
    So we started looking at it with some data and some 
analysis and some assessment groups; and the questions that we 
asked were, why do you join and why do you stay?
    Patriotism was at the top of the list. They want to be a 
participant in this Nation's defense. Folks are doing the job, 
and they don't want to stop doing the job. But they need to do 
it in a sustainable and predictable fashion.
    So we protect that civilian job they have got as well. So 
we protect that career path they have in their civilian job. So 
we are going after the employers as well in asking what is it 
that is affecting you the most about the tempo that we have? 
How do we make it sustainable and predictable for that 
employer? And then the families as well. What is it that they 
need? And the Yellow Ribbon, as was already mentioned, is a 
huge help in getting that done. Folks want to participate, sir. 
And they are doing it in good numbers.
    Mr. Smith. Thank you. Again over time, so I will move on to 
other members.
    I just wanted to say if there is anything our committee can 
do to help, support for your individual soldiers and airmen and 
their families is incredibly important to us. Let us know what 
we can do.
    With that, I will turn to Mr. Bartlett, if he has further 
questions.
    Mr. Bartlett. Thank you very much.
    General Stultz, we hear General Casey talk about the Army's 
force generation model and the heavy reliance the model has on 
enablers, those combat support and combat service support 
forces which predominantly rest in the Reserve components. This 
is where your force is crucial to the Army's mission, as a huge 
portion of the Army's Reserve is essential enablers. As it 
relates to your equipment needs, what are your critical 
equipment shortages and how do these shortages impact your 
ability to support the Army's missions?
    General Stultz. Thank you, sir.
    As you just indicated, the structure of the Army has come 
to the point, we have operationalized the Guard and the Reserve 
not because we wanted to but because we had to. When you have 
75 percent of your engineering capability in the Guard and 
Reserve, when you have about 75 percent of your medical 
capability in the Guard and Reserve, when you have about 63 
percent of your logistics, you have to operationalize that 
force if you are going to be in an extended conflict.
    The equipping needs I had, as I outlined already, one is, 
give us that flexibility that we need strategically so that we 
can flex when we need to deploy forces in other places as well 
as that training so that we maximize the amount of time we can 
deploy a force by minimizing the amount of time back home 
required to train because they are training on the right 
equipment.
    The critical needs I have got, as was already kind of 
mentioned, the FMTVs, family of medium tactical vehicles, I am 
short about 5,000 in my formations, which says you are 80 
percent equipped but you are 49 percent modernizing that family 
of vehicles. In the Humvees, I am 85 percent equipped. I am 13 
percent modernized in Humvees. My Humvees are the old, soft-
skin Humvees. They are not the up-armored. They are not 
equipped for the up-armored. My trucks' average age are 30 
years old. The dump trucks we have got are 34 years old average 
age.
    So my needs are getting the modernized equipment on hand to 
the tune of about--by fiscal year 2016, if I was fully 
modernized, it would be about $11.3 billion.
    Because the other challenge I have got, to your point, sir, 
as the Army continues to learn and change based on our lessons 
learned in theater, they are turning to the Reserve and Guard 
and saying, okay, we need you to take down this capability that 
we are not using but we need more engineers, MPs [military 
police], transportation, whatever. We are transforming 16,000 
spaces inside the Army Reserves in strength for new capability 
based on what the Army says they need. That comes with an 
equipment deal, because every truck company, every MP unit, 
every engineer unit has a bill of equipment. And that is where 
that $11.3 billion comes from. It is modernized equipment, plus 
new needs that the Army says we need.
    Mr. Bartlett. Thank you.
    General Wyatt, I have a similar question relative to the 
essential equipment items for the Air Guard to fulfill its 
homeland defense and direct military missions.
    The fiscal year 2011 budget request appears to plan further 
drawdowns in Guard aircraft. Can you provide the committee your 
sense of the potential impacts or areas of risk with the level 
of aviation assets planned in the budget?
    General Wyatt. Yes, sir. A two-part question, the first 
having to do with essential equipment shortfalls that we see.
    In the dual-use area, things like improved voice data 
communications, federal mission and the state mission, self-
protective equipment anywhere from--chemical, and biological, 
nuclear, radiological equipment, face masks, shields, helmets, 
gloves--all the way up to large aircraft, infrared 
countermeasures, protective equipment for aircraft missile 
warning systems. Anything that upgrades our ability to find, 
fix a target, targeting pods, helmet-mounted cueing systems, 
radar systems that help distinguish, especially in the Air 
Sovereignty Alert mission, to distinguish small targets in 
highly cluttered air environments. And, again, the dual-use 
equipment, special-use equipment like fire trucks, buses, 
tactical vehicles, and those sorts of things.
    To your second question on aircraft drawdowns, President's 
Budget 11 and the fighter world contain no further aircraft 
drawdowns after the fiscal year 2010 Combat Air Forces 
Reduction. So I think as far as the Air Sovereignty mission 
goes, at least in the near term, we are okay.
    We do have the concern that I mentioned earlier about some 
of our older airplanes in the 2015, 2016 time frame. The block 
30s face some sustainment issues as we go forward. The larger 
aircraft, again we looked to the Mobility Capabilities 
Requirements Study as kind of the roadmap. But it has just 
recently been released, so I think the Air Force is going to 
need some time to work our way through that to determine the 
appropriate mix of different types of aircraft before we will 
be able to answer that question with any specificity.
    Mr. Bartlett. Thank you.
    Thank you, Mr. Chairman.
    Mr. Smith. Thank you.
    At this point, I will just take Mr. Wilson or anyone else 
that has anything further after that. Go ahead.
    Mr. Wilson. Thank you, Mr. Chairman.
    I appreciate the earlier response in regard to equipment on 
hand, the modernization, the differential between the two; and 
my next concern is equipping the Guard and Reserve forces who 
are being deployed to Afghanistan. Again, each of you, if you 
could tell us what the status is of their equipping level.
    General Carpenter. I think, as the chairman pointed out in 
his opening statement, every unit that goes down range has 
absolutely the best equipment that we can provide to him across 
the Army. That results in cross leveling across, in our case, 
the Army National Guard and, in some cases, across the Army to 
make sure that when a unit like the 81st or the 218th goes down 
range that they have absolutely the best equipment. When they 
come home, it takes a little bit longer for them to get their 
equipment back, because there are what we call reset 
requirements.
    So, in some cases, for up to a year maybe, even a little 
bit longer, depending upon the type of equipment, the unit does 
not have the equipment that it is supposed to have. For 
instance, I think the 81st right now, the equipment fill for 
that particular unit is around 43 percent. They just came back 
last fall. And so the equipment is in process of being 
recapped, reset, which is absolutely the right thing because 
that equipment needs to be prepared for the next time should 
there be a requirement for that unit to deploy and it needs to 
provide the equipment for that unit to train on.
    So, for the most part, overall the average that I gave you 
before of 77 percent across the board, that accounts for units 
that are in reset--well, other units that are in the available 
year.
    General Wyatt. Congressman, the Air Force keeps us pretty 
well equipped at all times because we are on a lot shorter 
rotation periods but more frequent rotations than the Army is. 
We have provided as part of our response in written testimony 
the requested maps that show the equipping levels in the Air 
National Guard as to each of the States.
    We are in pretty good shape. Our issues continue to be 
primarily in the logistics arena, and this goes back to the 
some of the truck special use vehicles. We have some shortages 
in the weapons, the personal weapons for some of our security 
forces.
    But our primary problem is one of modernization, to make 
sure that, when we deploy, we are up on that operational step 
with the active component in making sure our systems are 
interoperable. And that is where we concentrate, to the degree 
that we can, the expenditures of additional resources like 
NGREA, trying to mesh that with the State mission, too. A lot 
of those types of equipment that we need are dual use, and that 
is where we focus our efforts.
    General Stultz. Yes, sir. Every Army Reserve unit that we 
deploy down range goes at 100 percent equipped with the 
mission-essential equipment that they need and it is the 
modernized equipment that they need.
    The challenge we have, I think, is twofold. One, the unique 
sets of equipment that are in theater--I use the example of the 
MRAPs in Iraq and the M-ATVs [MRAP-All Terrain Vehicles] that 
are now in Afghanistan--we don't have those back here to train 
on. We are currently trying to acquire 24 MRAPs to put at our 
training centers to give them the experience. We think we will 
be successful in that regard, but now the focus is on M-ATVs, 
and all the M-ATVs being produced are going to theater. So in 
some cases the first time they see that piece of equipment is 
when they get into theater and have to go through a train-up at 
that time instead of prior to deploying.
    The other thing that we are doing to mitigate is on the 
Rapid Fielding Initiative, RFI. That is the personal gear that 
you get that is unique to the theater that is all the best and 
greatest and thanks to Congress protects our soldiers to the 
best extent possible. But they don't get that RFI equipment 
until they get to the mobilization center, in most cases.
    We have got a lot of training we want to do prior to that 
unit getting mobilized. So in the Army Reserve we establish 
what we call Regional Training Centers. We have outfitted those 
with RFI. So during the year prior to mobilization, a unit goes 
through that Center to do their warrior leader tasks, and we 
issue them the RFI so they can train with the latest and 
greatest helmet sights and everything. Then they turn that back 
in.
    So when they get to the mobilization station now, they have 
already trained on that type of equipment, and they get it 
reissued at that point.
    General Stenner. Mr. Chairman, I will echo and, Congressman 
Wilson, echo General Wyatt's comments.
    Let me put a finer point on that as far as the bigger 
dollar amounts. We have taken risks as an Air Force over the 
last several years in weapons system sustainment, all three 
components. We have done that to include modernization as a 
higher priority. The weapons system sustainment is now a 
priority, to catch up on some of the backlogs in some of the 
depots in some of the engines and some of the recaps and resets 
that we have got to do in our major weapons systems. So weapons 
system sustainment overall for all three components has got to 
be increased and the equipping levels that we have got for our 
personal protective gear sustained as well and recapitalized as 
well. But we do send the folks to the area of responsibility 
with the most modern and most recent equipment and seamlessly 
integrated with our active component.
    Thank you, sir.
    Mr. Wilson. Thank you. And as a veteran and a parent, I 
appreciate so much what you do for our troops with 
modernization. Thank you.
    Mr. Smith. Thank you very much.
    Mr. Coffman, do you have anything further?
    Mr. Coffman. No, Mr. Chairman.
    Mr. Smith. I don't have any further questions myself.
    Anybody else? Do you have something?
    Okay. I think we are good.
    Again, I want to thank all of you gentlemen for your 
outstanding work. It has been a major transition in the Guard 
and the Reserve since 9/11; and, as all of us have testified 
to, you have done incredibly well and our committee simply 
wants to help in any way we can to provide you the resources 
and support you need to continue to do the fabulous job that 
you and your soldiers and airmen are doing every day. So thank 
you for testifying.
    With that, we are adjourned.
    [Whereupon, at 2:47 p.m., the subcommittee was adjourned.]
      
=======================================================================

                            A P P E N D I X

                             April 22, 2010

=======================================================================

              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 22, 2010

=======================================================================
      

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================

              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             April 22, 2010

=======================================================================
      
                    QUESTIONS SUBMITTED BY MR. SMITH

    Mr. Smith. Please describe the progress that has been made on 
improving visibility of tracking equipment requirements through budget 
preparation and review, appropriations, funding allocation and 
ultimately in the distribution of new equipment.
    General Carpenter. [The information referred to was not available 
at the time of printing.]
    Mr. Smith. What mechanisms are in place to ensure that when 
Congress provides additional funding for National Guard and Reserve 
equipment that the Army and Air Force actually follows through on 
executing the funding and providing the equipment?
    General Carpenter. [The information referred to was not available 
at the time of printing.]
    Mr. Smith. What is the total investment required to adequately 
resource an ``operational reserve''? And, are the National Guard and 
Reserve Components organized and capable of maintaining and managing 
this increase in equipment inventory through the out years?
    General Carpenter. [The information referred to was not available 
at the time of printing.]
    Mr. Smith. Background: The Department of Defense's 2010 report on 
its Quadrennial Defense Review recognized the contributions of the 
National Guard and reserves in ongoing operations. In addition, the 
report noted that challenges facing the United States today and in the 
future will require employing the National Guard and reserves as an 
operational reserve while providing sufficient strategic depth. 
However, the Department did not specify actions it would take to 
support the reserves in their operational role.
        <all>  The QDR report noted that an incentive structure must be 
        used to create easier access to reserve component capabilities 
        that are routinely in high demand. What kind of incentive 
        structure do you think is needed to accomplish both creating 
        easier access to reserve component capabilities for the Army 
        and Air Force and implementation of a rotational deployment 
        model that meets deployment tempo goals?
        <all>  The QDR reported asserted that the reserve component has 
        untapped capability and capacity. Could you comment on the type 
        and quantity of untapped capability and capacity you see in the 
        National Guard now?
    General Carpenter. [The information referred to was not available 
at the time of printing.]
    Mr. Smith. As you are aware, the Army has indicated the acquisition 
objective for new production Utility and Up-Armor Humvees is complete 
and the Army now plans to transition from new production Humvees to 
focusing on ``recapping'' those in current inventory and those 
returning from Iraq. What is the Army National Guard's position toward 
the Army's new acquisition strategy for Humvees?
    General Carpenter. [The information referred to was not available 
at the time of printing.]
    Mr. Smith. What is the status of the payback plans the Army is 
required to provide the reserve components? If the Army has not 
provided payback plans, what do the units who left the equipment 
overseas use for training?
    General Carpenter. [The information referred to was not available 
at the time of printing.]
    Mr. Smith. Does the Army National Guard have the full time support 
needed to ensure that the increased training and equipment maintenance 
activities needed to increase readiness are completed before 
mobilization?
    General Carpenter. [The information referred to was not available 
at the time of printing.]
    Mr. Smith. Please describe the progress that has been made on 
improving visibility of tracking equipment requirements through budget 
preparation and review, appropriations, funding allocation and 
ultimately in the distribution of new equipment.
    General Wyatt. [The information referred to was not available at 
the time of printing.]
    Mr. Smith. What mechanisms are in place to ensure that when 
Congress provides additional funding for National Guard and Reserve 
equipment that the Army and Air Force actually follows through on 
executing the funding and providing the equipment?
    General Wyatt. [The information referred to was not available at 
the time of printing.]
    Mr. Smith. What is the total investment required to adequately 
resource an ``operational reserve''? And, are the National Guard and 
Reserve Components organized and capable of maintaining and managing 
this increase in equipment inventory through the out years?
    General Wyatt. [The information referred to was not available at 
the time of printing.]
    Mr. Smith. Background: The Department of Defense's 2010 report on 
its Quadrennial Defense Review recognized the contributions of the 
National Guard and reserves in ongoing operations. In addition, the 
report noted that challenges facing the United States today and in the 
future will require employing the National Guard and reserves as an 
operational reserve while providing sufficient strategic depth. 
However, the Department did not specify actions it would take to 
support the reserves in their operational role.
        <all>  The QDR report noted that an incentive structure must be 
        used to create easier access to reserve component capabilities 
        that are routinely in high demand. What kind of incentive 
        structure do you think is needed to accomplish both creating 
        easier access to reserve component capabilities for the Army 
        and Air Force and implementation of a rotational deployment 
        model that meets deployment tempo goals?
        <all>  The QDR reported asserted that the reserve component has 
        untapped capability and capacity. Could you comment on the type 
        and quantity of untapped capability and capacity you see in the 
        National Guard now?
    General Wyatt. [The information referred to was not available at 
the time of printing.]
    Mr. Smith. We understand that the Air National Guard operates 16 of 
18 Air Sovereignty Alert (ASA) sites, and that by 2013, retirements of 
F-16 aircraft will affect 10 of 18 ASA [A-S-A] sites. Are plans in 
place to replace the retiring force structure for all of the Air 
National Guard's ASA sites?
    General Wyatt. [The information referred to was not available at 
the time of printing.]
    Mr. Smith. The recent Mobility Capabilities Requirements Study 
identified an overmatch in C-130 tactical airlift force structure. How 
will future reductions affect Air National Guard units? Have you, the 
Adjutants General, and Governors been consulted on potential future 
force reductions?
    General Wyatt. [The information referred to was not available at 
the time of printing.]
    Mr. Smith. Please describe the progress that has been made on 
improving visibility of tracking equipment requirements through budget 
preparation and review, appropriations, funding allocation and 
ultimately in the distribution of new equipment.
    General Stultz. [The information referred to was not available at 
the time of printing.]
    Mr. Smith. What mechanisms are in place to ensure that when 
Congress provides additional funding for National Guard and Reserve 
equipment that the Army and Air Force actually follows through on 
executing the funding and providing the equipment?
    General Stultz. [The information referred to was not available at 
the time of printing.]
    Mr. Smith. What is the total investment required to adequately 
resource an ``operational reserve''? And, are the National Guard and 
Reserve Components organized and capable of maintaining and managing 
this increase in equipment inventory through the out years?
    General Stultz. [The information referred to was not available at 
the time of printing.]
    Mr. Smith. Background: The Department of Defense's 2010 report on 
its Quadrennial Defense Review recognized the contributions of the 
National Guard and reserves in ongoing operations. In addition, the 
report noted that challenges facing the United States today and in the 
future will require employing the National Guard and reserves as an 
operational reserve while providing sufficient strategic depth. 
However, the Department did not specify actions it would take to 
support the reserves in their operational role.
        <all>  The QDR report noted that an incentive structure must be 
        used to create easier access to reserve component capabilities 
        that are routinely in high demand. What kind of incentive 
        structure do you think is needed to accomplish both creating 
        easier access to reserve component capabilities for the Army 
        and Air Force and implementation of a rotational deployment 
        model that meets deployment tempo goals?
        <all>  The QDR reported asserted that the reserve component has 
        untapped capability and capacity. Could you comment on the type 
        and quantity of untapped capability and capacity you see in the 
        National Guard now?
    General Stultz. [The information referred to was not available at 
the time of printing.]
    Mr. Smith. The average non deployed unit has about 65 percent of 
its authorized equipment needed to conduct training, participate in 
future deployments and respond to domestic missions. The Department of 
the Army has a plan to adequately address this equipping shortfall but 
not until 2019. Is this timeline sufficient and what risks are 
inherited in this plan of resolving this most critical issue so late 
for the Army Reserve?
    General Stultz. [The information referred to was not available at 
the time of printing.]
    Mr. Smith. What is the status of the payback plans the Army is 
required to provide the reserve components? If the Army has not 
provided payback plans, what do the units who left the equipment 
overseas use for training?
    General Stultz. [The information referred to was not available at 
the time of printing.]
    Mr. Smith. Please describe the progress that has been made on 
improving visibility of tracking equipment requirements through budget 
preparation and review, appropriations, funding allocation and 
ultimately in the distribution of new equipment.
    General Stenner. [The information referred to was not available at 
the time of printing.]
    Mr. Smith. What mechanisms are in place to ensure that when 
Congress provides additional funding for National Guard and Reserve 
equipment that the Army and Air Force actually follows through on 
executing the funding and providing the equipment?
    General Stenner. [The information referred to was not available at 
the time of printing.]
    Mr. Smith. What is the total investment required to adequately 
resource an ``operational reserve''? And, are the National Guard and 
Reserve Components organized and capable of maintaining and managing 
this increase in equipment inventory through the out years?
    General Stenner. [The information referred to was not available at 
the time of printing.]
    Mr. Smith. Background: The Department of Defense's 2010 report on 
its Quadrennial Defense Review recognized the contributions of the 
National Guard and reserves in ongoing operations. In addition, the 
report noted that challenges facing the United States today and in the 
future will require employing the National Guard and reserves as an 
operational reserve while providing sufficient strategic depth. 
However, the Department did not specify actions it would take to 
support the reserves in their operational role.
        <all>  The QDR report noted that an incentive structure must be 
        used to create easier access to reserve component capabilities 
        that are routinely in high demand. What kind of incentive 
        structure do you think is needed to accomplish both creating 
        easier access to reserve component capabilities for the Army 
        and Air Force and implementation of a rotational deployment 
        model that meets deployment tempo goals?
        <all>  The QDR reported asserted that the reserve component has 
        untapped capability and capacity. Could you comment on the type 
        and quantity of untapped capability and capacity you see in the 
        National Guard now?
    General Stenner. [The information referred to was not available at 
the time of printing.]
    Mr. Smith. The recent Mobility Capabilities Requirements Study 
identified an overmatch in C-130 tactical airlift force structure. How 
will future reductions affect Air Force Reserve units?
    General Stenner. [The information referred to was not available at 
the time of printing.]
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. GIFFORDS
    Ms. Giffords. As many on this subcommittee know, the Air National 
Guard is very important to me. The 162d Fighter Wing in my home town of 
Tucson, is the largest Air Guard unit in the country and the 
international training unit for F-16s.
    A year ago we held a very similar hearing on the Air Sovereignty 
Alert mission. Since 9/11, we have scrambled jets 2,350 times to meet 
potential threats. Sometimes the threat proved more real than others 
but let's not forget it only takes one aircraft getting through the net 
to make us understand very clearly the consequences of failure.
    A year ago, both Congressman LoBiondo and I spoke of the precipice 
that our fighter fleet was quickly approaching.
    In 7 years, roughly 80% of the Air Guard will have aircraft on that 
have passed their acceptable service life.
    Last month the Secretary of the Air Force announced that Initial 
Operating Capability for the Joint Strike Fighter would slip further. 
That can only exacerbate the growing fighter gap within the Air Guard. 
We hear a lot about the Navy's gap of 200 or so aircraft but that truly 
pales in comparison to the 800 fighter shortfall we face in the Air 
Force in coming years.
    1. Last year we thought we had solved some of the problems with 
getting airframes into the Guard with the ``concurrent and 
proportional'' fighter basing language. If the JSF slides further, 
won't there still be a number of Guard bases that end up getting 
aircraft late-to-need?
    General Wyatt. [The information referred to was not available at 
the time of printing.]
    2. Many of us have seen the chart showing the fighter waterfall 
that will hit the Air Guard over the next 7 years. Can you please 
address the consequences of an 80% reduction in capability, and its 
negative impact on our National Military Strategy?
    General Wyatt. [The information referred to was not available at 
the time of printing.]
    3. Over the last year and a half I have been on the record 
advocating for a small interim buy of Generation 4.5 aircraft to offset 
the fighter gap and also exploring a Service Life Extension Program, 
concurrently. Are you aware of any steps toward doing a Service Life 
Extension Program and do you know of any studies yet completed that 
indicate it is a safe solution for Guard F-16s?
    General Wyatt. [The information referred to was not available at 
the time of printing.]
    4. Are you aware of plans for the Air Force to conduct a full scale 
review of Operation Noble Eagle--the program that provides for the ASA 
mission?
    General Wyatt. [The information referred to was not available at 
the time of printing.]
    5. Is the current budget request sufficient to fully protect 
America's ten major cities and the other high value assets identified 
as critical under `Noble Eagle'?
    General Wyatt. [The information referred to was not available at 
the time of printing.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. MILLER
    Mr. Miller. How will the shift to Afghanistan affect equipping for 
domestic missions?
    General Carpenter. [The information referred to was not available 
at the time of printing.]
    Mr. Miller. What is the status of the payback plans the Army is 
required to provide the reserve component?
    General Stultz. [The information referred to was not available at 
the time of printing.]
    Mr. Miller. In regard to the 919th SOW, I understand the wing's MC-
130 Talon I will be retiring in the next couple of years, what is the 
planned follow on mission for the 711th SOS? Do you anticipate the size 
of the wing changing as a result of the new mission for the 711th?
    General Stenner. [The information referred to was not available at 
the time of printing.]
    Mr. Miller. Does the Air Force intend to relocate the 2nd SOS from 
Creech to Eglin or Duke?
    General Stenner. [The information referred to was not available at 
the time of printing.]
    Mr. Miller. The QDR calls for a plus up in small aircraft for the 
AFID (Air Foreign Internal Defense), I know the 5th SOS is associated 
with the AFSOTC (Air Force Special Operations Training Center) at 
Hurlburt, will that unit need to grow to accommodate the additional 
training that will be required?
    General Stenner. [The information referred to was not available at 
the time of printing.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. COFFMAN
    Mr. Coffman. General Carpenter, how long does the Army National 
Guard plan to fly the C-23 Sherpa? What modifications do you plan for 
the C-23? Will the C-27J replace the C-23 Sherpa? When?
    General Carpenter. [The information referred to was not available 
at the time of printing.]

                                  <all>

</pre></body></html>
